OPINION*
PER CURIAM
Pro se appellant Themba Bernard Sanganza, proceeding in forma pauperis, appeals
from the District Court’s dismissal of his petition pursuant to 28 U.S.C. § 2241. For the
reasons that follow, we will summarily affirm the District Court’s judgment.
In October 2016, in the United States District Court for the Eastern District of
Virginia, Sanganza pleaded guilty to mail fraud, bank fraud, and aggravated identity
theft. He was sentenced to a term of 14 years’ imprisonment and ordered to pay
restitution. In January 2020, Sanganza filed a petition pursuant to § 2241 in the United
States District Court for the Middle District of Pennsylvania, the District in which he is
currently incarcerated, seeking to challenge the legality of his detention and requesting to
be released from custody. The District Court dismissed Sanganza’s petition for lack of
jurisdiction. Sanganza timely appealed.
We have jurisdiction over this appeal pursuant to 28 U.S.C. § 1291 and 2253(a).
The District Court made no factual findings; we exercise plenary review over the District
Court’s legal conclusions. Okereke v. United States, 307 F.3d 117, 119-20 (3d Cir.

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.
1 Sanganza does not need a certificate of appealability to proceed with this appeal. See
United States v. Cepero, 224 F.3d 256, 264-65 (3d Cir. 2000) (en banc), abrogated on
other grounds by Gonzalez v. Thaler. 565 U.S. 134 (2012).
2

2002). We may summarily affirm a district court’s decision “on any basis supported by
the record” if the appeal fails to present a substantial question. See Murray v. Bledsoe,
650 F.3d 246, 247 (3d Cir. 2011) (per curiam).
A § 2255 motion is the presumptive means by which a federal prisoner can
collaterally challenge the legality of his convictions or sentence. See Okereke. 307 F.3d
at 120. A federal prisoner may proceed under § 2241 only if he establishes that a § 2255
motion would be “inadequate or ineffective,” 28 U.S.C. § 2255(e), and “[a] § 2255
motion is inadequate or ineffective only where the petitioner demonstrates that some
limitation of scope or procedure would prevent a § 2255 proceeding from affording him a
full hearing and adjudication of his wrongful detention claim,” Cradle v. United States ex
rel. Miner, 290 F.3d 536, 538 (3d Cir. 2002) (per curiam). “Section 2255 is not
inadequate or ineffective merely because ... the one-year statute of limitations has
expired, or the petitioner is unable to meet the stringent gatekeeping requirements of the
amended § 2255.” Cradle. 290 F.3d at 539.
Sanganza has never filed a § 2255 motion in his sentencing court. He made
arguments in his § 2241 petition about why the Government lacks various forms of
jurisdiction to detain him, how his due process rights were violated in the course of his
criminal proceedings, and how forged documents were used to prosecute him. However,
Sanganza has presented no argument as to why a § 2255 motion would be an inadequate
or ineffective means to challenge what he claims to be his wrongful detention, and no
reason is apparent from his filings or the record. As Sanganza has been informed by his
3

sentencing court and by the District Court, a collateral challenge to his judgment of
conviction or sentence must be brought by way of a § 2255 motion. The District Court
thus properly dismissed Sanganza’s petition.2 See Cradle. 290 F.3d at 538.
Accordingly, we will summarily affirm the District Court’s judgment.

2 Additionally, Sanganza’s conclusory allegations of bias by the District Judge for
dismissing Sanganza’s petition and presiding over a prior case Sanganza brought are
entirely unsupported by the record.
4

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
THEMBA B. SANGANZA,

CIVIL NO. l:20-CV-28

Petitioner

(Chief Judge Conner)

v.
CATRICIA HOWARD,
Respondent
ORDER
AND NOW, this 13th day of May, 2020, upon consideration of the petition for
writ of habeas corpus (Doc. 1), and for the reasons set forth in the accompanying
memorandum, it is hereby ORDERED that:
1.

The Clerk of Court is directed to TERMINATE William Barr, John
Doe, and Catherine Hawk-Swayer as respondents in this matter.

2.

The petition for writ of habeas corpus (Doc. 1) is DISMISSED for lack
of jurisdiction.

3.

The motion (Doc. 5) to expedite is DISMISSED.

4.

The Clerk of Court is directed to CLOSE this case.

/S/ Christopher C. Conner______
Christopher C. Conner, Chief Judge
United States District Court
Middle District of Pennsylvania

VII.. The BRANCHES of GOVERNMENT
1. The United States Federal government is divided into three departments, typically referred to as "branches", as per the
Constitution. The United States Attorney General and the Department of Justice may only obtain lawful [United States
Constitution Article II] jurisdiction to subject an individual, such as the plaintiff, to detention based on certain terms and
conditions. Each branch may act only on the basis of "powers".
2. [Article I, section 1] vests all legislative powers in the Congress. Congress consists of a Senate, comprised of Senators, and
a House of Representatives, composed of State representatives. [Article II, section 1, clause 1] vests all executive power solely
in the president. [Article III, section 1] vests judicial power in one Supreme court and in inferior courts, as Conqress mav
establish per necessity.
3. [Article I, section 8, clause 18] and the [Tenth Amendment] indicate that no power vested by the Constitution in the Federal
^lauTelT/ *t ®eIf'imp,ementin9- A,i suchPowers remain dormant unless Congress implements them through legislation.
"[Only] [t]he Congress shall have power...to make Laws which shall be necessary and proper for carrying into Execution the
orrSTrS'f"nd 3,1 °ther P°WerS V6Sted by this Constitution in the Government of the United States, or in any department,
The [Tenth Amendment] further limits would-be pursuers of extra-Constitutional official powers. It states,
"The powers not delegated to the United States by the Constitution, nor prohibited by it to the States, are reserved to the States
respectively, or to the people."
[Clause 18] and the [Tenth Amendment] clearly establish the limits of legislative authority to either: execute powers vested by
the Constitution or repeal them. The notion that Congress has some "unlimited" legislative power to create any law that it
subjectively deems "proper" contradicts the obvious purport of the Constitution. It may only pass those laws necessary to instill
the power for the executive branch to implement the Constitution, and those laws derived therefrom.
4. [Article II, section 1, clause 1] establishes that all Executive power is solely vested in the President. It states,
"The executive Power shall be vested in a President of the United States of America."
No other officer, agent, employee, warden, nor general is constitutionally vested with such power. Executive power is the ability
to implement the Constitution and laws derived therefrom, particularly as understood by the judicial branch in cases wherein the '
law is not totally explicit.
5. [Article III] vests judicial power both in: one Supreme Court and in various inferior courts, as may be ordained by
Congressional acts. Judicial power is the ability to apply the Constitution and laws derived therefrom to cases with disputes
between parties which may be resolved by the scope of those two. It does not permit for independent creation of novel law, only
application of United States law and interpretation of it where necessary due to ambiguity or seeming contradiction.

• Appendix C

,IX . STATUTORY BASIS for [28 USC section 2241] FILINGS
1. As required by [Monsanto Company v. Geerston Seed Farms, 561 US 139,130 S. Ct. 2743 177 L Ed 2d 461 r?nimi the

~r C0WiCli0n 0rSen,enCe h ^ m0,i0n'ACCOrtlR9 *° “"* Id W.SffiS*.
maximum, a filant
nature of

ineffective to £fl£loS£f£deten?io“."rt ***

h"" re"ef’ U"leSS *appearS that remedy by m°"°" is ™^uate or

|SSpSriSSSlrSEsS5SS?

t^.f v.a ic^lty °fthe conviction or sentence, precede the validity of both, or confront those issues in
a way intrinsically intertwined
with issues that are not directly related to the criminal proceedings.

4. The petitioner does not solely challenge the jurisdiction of the court which rendered the "judgment in a criminal case" Rather

“,s ,o -** •*

* <*«*"•

d-«o„ 2 psr*

sataftffli",he defendant me opportunify ,o subm"
*££ K5S2S

for,hwi,h award ,he wri*or issue-—

The petitioner argues that it is factually proven that the respondent in this case, the defendants, do not have the authority to

Appendix D

. subject the petitioner to detention and that, were they compelled to "show cause," they would be totally incapable of
demonstrating such authority.
6. The defendants did not invoke the trial court's jurisdiction in the petitioner's criminal case, thereby rendering the "Judqment of
Conviction" issued by the trial court null and void ab initio. It has no force or effect. The judgment rendered'there in is a legal
nullity which does not exist as a matter of law. That means that the defendants are subjecting the petitioner to unlawful
detention in violation of the Constitution and laws derived therefrom.
7. The petitioner does not contest the conviction or sentence, and any arguments which may seem to do so in "V Claim
Statement" or as elaborated in "PART II" must be construed, as much as possible, to apply only to the detention. However the
petitioner may establish the blatant illegality of the conviction simply to demonstrate that a detention based on a blatantly wellknown to be, illegal sentence is consequently illegal. [Bellomo v. United States, 297 F. 2d 494, 2003 (E.D. NY)] states,
"Because inmate challenged his conviction and sentence, 28 USC section 2255 should have been medium for relief he souqhthowever, inmate's habeas corpus petition was properly filed under 28 USC section 2241 pursuant to the savings clause of 28 ’
USC section 2255 because section 2255 was inadequate and/or ineffective to test the legality of inmate's detention where
inmate did not challenge his guilty plea ori direct review, and thus, procedurally defaulted his claim by that failure and inmate
was, therefore, entitled to raise his claim of actual innocence in petition for writ of habeas corpus under section 2241."
The petitioner did not directly challenge a guilty plea on appeal. As such, a motion to "vacate, set aside or correct the
pursuehis 'righteunder ^clJ.alle”§®i1fJie ie9ality of tlle Petitioner's detention. Therefore, the petitioner has clear standing to
8. As a direct and proximate resuifof the unlawful detention that the petitioner is subject to, he is experiencing ongoing
irreparable injury/' to his life, inherent liberty, property, and pursuit of happiness due to the defendants': breach of constructive
trust, unjust enrichment, Preach of fiduciary duty, fraud, fraud upon the Constitution, fraudulent concealment, periurv cross
negligence, violations of the [Fourth], [Fifth], [Eighth], [Tenth], [Thirteenth], [Fourteenth Amendments], [Article III] to the
Constitution, and the General Assembly's "Declaration of Human Rights". The plaintiffs complaint contains sufficient factual
matter to allow the court-to draw the reasonable inference that the defendants are liable for; unlawful detention kidnappinq
illegal arrest, unlawful imprisonment, abuse of the legal process, physical trauma, psychological trauma, lowering the
defendants life expectancy considerably, involuntary servitude, loss of wealth, larceny, familial discord, public defamation libel
’
'
and many more injuries which are too many to list.
9. The petitioner has [United Stales Constitution Article III] standing to bring this civil action before the court as it is a case
involving injury harming the petitioner due to a violation of the Constitution. [Vermont Agency of Natural Resources v United
States, ex rel Stevens, 52S US 765,120 S. Ct„ 1858 146 L. Ed. 2d 836 (2000)] explains the [Article III] requirement as to
affecting standing to challenge particular conduct as violative of Federal law. It states,
"To establish slanding under Article II of the Federal Constitution, a plaintiff must meet the requirements which constitute the
irreducible minimum of standing which is an essential and unchanging part of the Case-or-Controversy requirement'of Article If
such requirements being that the plaintiff must
M
hypothetical^6 ^

f8Ct' which is a harm that is

both concrete and actual or imminent, and (b) not conjectural or

ctefendantSandUSaii°n’ Wh'Ch 'S 3 fairly traceable connection between the alleged injury in fact and the alleged conduct of a
(3) demonstrate learessauility, which is a substantial likelihood that the requested relief will remedy the alleged injury in fact."
It is indisputable that incarceration causes great harm, but that harm is considered justified in pursuit of justice. However a
person incarcerated without just cause or due process suffers that great harm in the absence of justice. Additionally he is
actually facing this harm, and not simply filing on behalf of posterity [Wolff v. Cash 4 Titles, 351 F. 3D 1358 24504 (11th Cir
2003)] and [Clinton v. City of New York, 524 US 417,118 S. Ct. 2091,141 L. Ed. 2d 393-394 (1998)]. It is further indubitable
that the defendants are the cause by which the plaintiff continues to be incarcerated. This motion further demonstrates that the
relief requested herein will remedy the ongoing component of the ongoing injury.
10. As the court has yet to issue an "Order to Show Cause" to the defendants, there does not yet exist a controversy or dispute
to the facts or claims raised by the petitioner. However, the controversy exists due to the petitioner challenging his detention.

[Susan B. Anthony List. v. Driehause, 573 US 149,134 S. Ct. 2334,189 L. Ed. 2d 246 (2014)1 exnlains that rArticle 1111 limits •
urisdiction of Federal courts to cases which contain controversy. The doctrine of standing gives^meaningto IhoTe CoJsSonal
limits by identifying those disputes which can appropriately be resolved through the judicial9process. |ts purpose is to prevent
rit hlKIS? .r
USe, t0, T P,‘TerS °f !he p0lilical branches of 90vernment Actual contoverey Is a requirement
of a hearing before the courts, not only when the complaint was filed, but through all stages of litigation - otherwise the iudae
ph
*be *a°*< ° controversy> as Per [Kingdomware Technologies Inc. v. United States, 136 S. Ct. 1969, 195 L.
to.

(20 lOj].

Panel's detention by the respondent is in violation of the Constitution and laws of the

12. Accordmg to [28 USC section 2242], the defendants' claim of jurisdiction to subject the petitioner to detention is the matter
which is subject to challenge in a [section 2241] motion - not the jurisdiction of the trial court as it is not al^
prisoner to detention. The claim of jurisdictional authority of the defendants did not begin at the issuance of a "Judgment in a
els'ewhere1in'thismoton
V ^ Un'ted St3teS District C°Urt’ but actUaNy began based on certain Presumptions as outlined
£&lSSSS?J^Sfn!fiK18 3 mandato,y dU‘y 10 6XPedi,e C0nSidera'l0n °f

Good cause is indisputably shown in "Part ll” of this motion.

< :

act™ br-9ht under habeas

X. VENUE
1.
f°r v,°lati"p *he Pontiffs due-process as stipulated for in the [United States Constitution Fourteenth Amendment] thereby affecting his liberty interest to be free from prosecution without probable cause. They are culpable for placinq him in
custody unlawfully. His illegal detention does not diminish his due-process rights [Haines v. Kerner, 404 US 519,30 L. Ed. 2d]
2. Whenever a section 2241 habeas petitioner seeks to challenge his present physical custody within the United States, he
warden as respondent and file the petition in the district of confinement." [Rumsfeld v. Padilla 542 US 426
"withinth^r
Lh Er ‘ ^Th (o°°4)] Under f28 USC section 2241 (a)H* district courts may only grant habeas relief
within their respective jurisdictions." The Supreme Court has interpreted that statute to mean "that the court issuing the writ
!w^UnSd,Ctl0n °V6r the cu®fod'arV1 [Braden v. 30th Judicial Circuit Court of Ky, 4101 US 484 495, 93 S. Ct. 1123, 35 L. Ed. 2d

3. At all times relevant to this petition, the petitioner has been in the respondents" custody, or their predecessors. [28 USC
tiwpeBtoner°rder f°''9 petitioner to invoke the court’s jurisdiction to entertain a petition for habeas corpus,
a) Establish that the petitioner truly is in custody under the color of the United States' authority

. and;

[Sars,r„^
m J3lf P.etltion I1?113.1 b.e f’0ned and yeLrified bythd petitioner, alleging facts concerning his detention that he believes make it
Mlegal He must induct- .he name of those holding custody over him and the virtue of the claims which demonstrate that his
fdPntiS'hi 93'' 'h,s pe™°ne; provtides.a 'Verified Statement of Facts" concerning his commitment and detention. He has
StonertLISSS^StS!9
*^ **^ «**cWm**°“•*»**°<*»Onihese basis, the
6. The petitioner is physically held in a facility of the Bureau of Prisons, a subdivision of the United States Department of
A^rtin^to P8 USC sSSso?'1 88 defendantS are not remote fi9Ures without direct involvement in the illegal detention.

Sena,e’” W General o„he United States. The
p8eu^s^-on 509] s^sDePa,1ment °f '3USt'Cfi and ^ subdivisions are under his authority. They are effectively his actions.

'£2£MheXnly’SS^0'JUS'iCe

* *•— and

*«-

-

j2?i,e thewarden, and wardens of other BOP facilities, are directly holding the plaintiff - they do so under the permission of
the Attorney general. Just as tne warden does not physically restrain the petitioner from leaving the facility, rather her
USCmSm 40415 suites' aUth0r'ty’ S° d°eS the Attorney General 9've the allowance to illegally incarcerate the plaintiff. [18

3?420M explains

Appendix E

ln°,Ude ^ Warden' Wh° SCtS With the Att0mey General's authority. Furthermore, [18 USC section

"In a detention order issued under subsection (e) of this section, the judicial officer shall (1) include written findings of fact and a written statement for the reasons for detention;
thi ovffnthat tl?6 PMrSC^n committed t0 the custody of the Attorney General for confinement in a correctional facility separate to
the extent practicable, from person awaiting or serving sentences or being held in custody pending appeal...."

Chapter 1, Part O, Subpart ri, and, specifically, [28 USC section 0.111], affirm,
includin^Ct0r °f ^

9

Stat6S Marshals Service shal! direct and supervise all activities of the U.S. Marshals Service,

in. STXST °f CUSt°dy °f Federa!prisoners from the time of their arrest by a marshal or their remand to a marshal by the
sentence' ^ P6rS°n 'S committedby order of the court to the Custody of the Attorney general for the service of their V

As the petitioner has been sentenced, he is in the custody of the Attorney General.
^ta3M1U^,n'^1UhSls0f J"Stl‘Ce' ^iS **

^

pSSssenfen^dTnde^ MS^SC

"A person who has been sentenced to a term of imprisonment pursuant to the provisions of Subchapter D of Chapter 227
shall
satisf^to^beha^io^pursuanU^e prcMsionsrof°sect!on362X"P'rat'°n *'*“fcnn “ °r“*aa*r

the ^parbnenroTjustfce^ndThe^Atlomey GeneiBi0^67^ a" P°WOT °',he PreSident rema'n d°m’ant as ,hey refer to
9;Jhe Attorney General is an appropriate defendarit. [Mandarino v. Ashcroft, 318 F. Supp. 2d 12, (D. Ct. 2003) explained that
although the AG was not the physical jailer of a detained alien, he was the legal custodian who was also a proper respondent

■XI. JUDICIAL INDISPUTABILITY of FACTS and LAW
1. A presiding judge is neither a qualified witness nor advocate for any party in an action. [28 USC section 2248] provides that
all verified statements of jurisdictional facts, material facts, and self-authenticated documentary evidence, such as the
Constitution or laws enacted under its’ augusts, must be deemed true. The simple fact that the pro se petitioner is submitting
them does not detract from their correctness or conclusiveness. A judge's competency as a witness prohibits them
controverting, contesting, disputing, rebutting, or refuting any such facts [Federal Rule of Evidence 605], Therefore, no opinion
or dicta of the judge, or even of fellow judges in any district, can be utilized to contradict such facts.
2. In order for a judge to seek allowance to oppose the truthfulness of any fact submitted by the petitioner in this motion, they
must issue an "Order to Show Cause" according to [28 USC section 2241]. That order would direct the defendant to show
cause as to why the writ should not be issued, and must be filed as a written affidavit issued under oath by the defendants
personally [28 USC section 1746]. It must be based on the defendant’s personal knowledge according to [Federal Rule of
Evidence 601], Therefore, the law does not allow for a judge to directly argue the facts, only to compel the defendants to
provide a certifiable defense. Otheiwise, ail facts, not disputed are deemed true and agreed upon by both parties in this action,

Appendix F

Xil. EXECUTIVE AUTHORITY to DETAIN the PETITIONER
1. The petitioner claims that: the respondents are subjecting him to unlawful detention in violation of the Constitution and laws
of the United States. That is due to the lack of evidence regarding a fundamental presumption of all Federal criminal
proceedings: that they had the required authority to abduct the petitioner from his residential State, under force of arms, and
subject him, as a part of that State's sovereign body politic, to detention under the Federal criminal offense statute on record.
There is no evidence in the District Court's record proving that the respondents had the requisite [United States Constitution
Article II] Presidential authority to detain the petitioner.
2. The presumption is that the District court lacked the authority to accept the jurisdiction to hear the case until the plaintiff, in
this case the UNITED STATES of AMERICA as represented by agents acting in official capacity, proved that [Article II] basis. It
is under a maxim of law that the District court lacked the authority to accept jurisdiction of the petitioner's criminal case until they
unequivocally proved otherwise. The UNITED STATES, being the plaintiff in this petitioner's criminal case, had the onus of proof
- beyond reasonable doubt - to demonstrate basis for the District court to accept jurisdiction. The procurement of [Article II]
authority is something reasonably provable.
3. [Article I, section 8, clause 18] requires Congress to implement "all necessary and proper laws" pertaining to carrying out
[Article II] powers. That implementation is publicly available on the Federal Register. [5 USC chapter 1, section 101] indicates
that Executive departments, such as the Department of Justice, are established only by and through such legislation. [5 USC
ch.3] implements executive powers for those departments. Yet, as [Article II, section 1, clause 1] vests only the President with
executive power, [5 USC ch.3] and [28 USC part II] must be understood to only implement those powers for the sitting
President. Executive departments and their heads, such as the defendants, can only act as assistants to the President. They
are not independent actors with inherent constitutional authority.
«•*
4. These provisions are not oversights by the architects of the Constitution. Unlike [Article II], [Article III] vests judicial power in
multiple entities as inherent. Therefore, their vesting of executive power only in the president was an intended limitation on such
power. Judicial power is vested in one Supreme Court and in any inferior courts that Congress may ordain as necessary. That
includes the District court which the petitioner's case was heard in. [Article I, section 8, clause 18] require Congress to
implement judicial power in the courts, which has been carried into execution as per [28 USC part I] and elsewhere in the
[United States Code].
5. However, [Article II] governing executive power contains no provisions for independent subordinates as [Article III] does.
Executive power remains constitutionally vested solely in the President, not any department or officer besides him. Congress
has no constitutionally-derived right to delegate [Article II] power to department heads, including the defendants, as evinced by
[3 USC section 301-303]. Congress implemented executive power as to the President in [3 USC ch.4, section 301],
"The President of the United States is authorized to designate and empower the head of any department or agency in the
executive branch, or any official thereof who is required to be appointed by and with the advice and consent of the Senate, to
perform without approval, ratification, or other action by the President:
(1) any function which is vested in the President by law, or
(2) any function which such officer is required or authorized by law to perform only with or subject to the approval, ratification, or
other action by the President: Provided, that nothing contained herein shall relieve the’President of his responsibility in office for
the acts of any such head or other official designation and authorization shall be in writing, shall be published in the Federal
Register, shall be subject to such terms...."
Detention for a Federal crime is an act of executive power. The sitting President has the sole capability and responsibility to
detain individuals convicted of crimes.
6. As [Article II, section 1] vests all executive powers in the President, the provisions of [3 USC section 301] render all actions of
Department heads, who are properly delegated the authority to act, Presidential acts in actuality. However, no one may act as
the President, with his exclusive [Article II] authority, without explicit delegation - in writing - after consent of the Senate and
publishing on the Federal Register. Where applicable, the specific officer to whom power is delegated should be mentioned by
name.

Appendix G

Co'nstitljHonfnot as^sensetess^'re^ta^e" or bumaucratiC^hur^es^buUo1 prevenUyranny. 9rocesses are st,Pulated 'n the

196US^Sote49L^

r69ardS t0 thS defendants as Pertains t0 the P,aintiffs criminal case. [Scott v. Carew,

respectXe duties^3^ ^ **** thr°U9h ^ he3dS °fthS several dePartments-in relation to subjects that pertain to their
Acting under the pretenses of the land's highest office is a serious legal due-process claim which must be thorouqhlv
~* ?0,\9?ss +may nat delf9ate such authority independently. Congress may only implement the President’s executive
power after he delegated it through a written order with the Senate's approval. The record of the District court in the plaintiffs
criminal case, the Federal Register, and numerous rebuffed attempts to obtain this information do not corroborate this
presumption underlying the plaintiffs detention.
9 In order to justify detaining the plaintiff, the Federal Register, at the very least, must reveal the existence of a written
o?fh!9nIfr
'TUt byJh® Sltting 'President'for the sittinaUnited States Attorney General or his subordinates, by the time
of the petitioners detention. That process must have been complete prior to detaining the petitioner. As no evidence exists of
that process, the presumption that jurisdiction is lacked to detain the petitioner was never overcome. Therefore his
imprisonment is void ab initio and a legal nullity which must be revoked without day.
10. these processes are mandatory. They are not voluntary and have never been repealed. Violation of them invalidates the
detention of a suspect or even a "convicted criminal." Without granting the petitioner this due-process right the Federal
government as represented by the defendants had no authority or jurisdiction to detain him. The merit's of the prosecution's
accusations are totally irrelevant if due-process is violated. The petitioner’s intrinsic presumption of actual innocence was
never
overcome.
the Prohtibiti°n a?ai"st e* P°st fact0 laws imP°sed at [Article I, section 9, clause 3], this blatant due-process violation
cannot be cured retroactively. For the President to delegate such authority now would only permit the defendants' jurisdiction
against cases following that delegation, not to the petitioner who was initially detained without it. The petitioner was detained on
the incorrect pretense that Congress had the requisite authority to establish the executive positions of the defendants as
separate, intrinsically endowed, executive powers. The Constitution does not permit that due-process short-cut which led to this
preponderant illegal detention.
12. All available records evidence that the defendants did not meet the due-process requirement to demonstrate written
Presidential Delegation Orders." Those orders are argued to have permitted them to enter the petitioner's residential State
under force of arms, to detain the petitioner under the color of Federal authority. However, the defendants are unequivocally
unable to prove that: Congress implemented ^President's' executive power, which he used to delegate executive power to
.he defenciants by issuing said "Delegation Orders," naming specific appointees as necessary, with the Senate's consent then

petitioner5Iomega!

bee" P'0Ven "0,,° °0CU'red' 'he reSP°nde",S ^ SUb<eCti"9 *"

• Xlil . FEDERAL CRIMINAL and TERRITORIAL JURISDICTION

claims,haSri“S&

^^■K.'s^sssisrs SS5lS!fi^1S|lEsr5SSi^^

them, ,0 subject the petitioner - a part of his residential State's soverSgn body P«o to detenta'and eSitata ler
states Thai was all done under his "Federal criminal statute of conviction." However, the United States District Court did not
have the requisite authority to issue a detention order as its’ presumption of lacking jurisdiction was never overcome It is a
maxim of law that jurisdiction is lacked until the plaintiffs in a case thoroughly evince the courts' right to it.
ifl^SdiCt;?n iS p'esum®d absent for all District Courts, the defendants in this case were required to prove their claim to
thi n2tr petlIOne,[beyon,d reafonable doubt-The defendants had to demonstrate a constitutional basis to enter and detain
Artidfl sTctionHlwLT^plfr113 i !316’ underthe color of Federal law, for a purported "offense." [United States Constitution
Article 1, section 1] vests all legislative powers in Congress. [Article I, section 8, clause 18] states,

h°r= by hae C°nut,tUtlon-!t doe? not vest Judges with any unlimited legislative authority to enact any legislation which

AS,he^"neCeSS^andPr0perfe• m9ua.'b“Ld

residential State to the absolute authority of the Federal government. That clause states,

shall be bound thereby, any Thing in the Constition or Laws of any State to the contrary not withstanding."

^
the

hH?Hetnhaflrtr ar matters that individually sovereign States cannot on their own. The petitioner's State of residence can only
feo2for tae benTcftae wWeeraSe Certa'n P°WefS W"h "S' ^ ^tlTO,9h a system °f
Tha, ays,eta
the SUprerh> LaW ofthe Land’the Petitioner's resdiential State retained its' sovereignty
and claim to, alongside other individually sovereign States, absolute authority over all powers vested in the Federal

Appendix H

■ frenttS

6XiStS V'rtUally 3t the fancy 0f the Union's States wh0 vo|untarily implement its' powers. The

"The powers not delegated to the United States by tyhe Constitution [explicitly], nor prohibited bv it to the States
are reserved
to the States respectively, or to the People."

SSSSSSKSSSSSSSi- •” ““
“£d^tHe Un'ted Stat6S Shal1 h3Ve 0riginai iurisdiction. exclusive of the States, of all offenses against the laws

states^’the ^ur’sd‘ct‘on

thereof"

Federal courts is still limited by the jurisdiction of State courts. In [18 USC section 3231] it further

^ titl6 Sha" be he'd **take 3W3y °F 'mpair the Jurisdietion of the courts of the several States under the laws

In^nn nftbn f"0,
tU™ *! [!8 U?C Ch*m 2?1] and [18 USC sedtion 3231~32321 which limit Federal courts*
application of original jurisdiction" only to offenses committed within the "Judicial District" or "Judicial Division" of Federal
District courts.

-

8. The Constitution does not delegate any self-executing power to the Federal judiciary to exercise by "judicial decree"
nnwof^r’
evid®"ce*at thf Uni°"’s States authorized the Federal judiciary to exercise some extra-constitutional
SnH of ?hJ 9
A he P? Amendment] recognizes that the States are independent, sovereign, constitutional republics in
and of themselves. As such, they retain the absolute power in Congress to implement all other constitutional powers.
2th!6 Statesandthe Federal government are equally prohibited from exercising certain powers, as in [Article I, section 10
ciai“®e 1J ®nd the Fourteenth Amendment]. Especially, the priveleges and rights of American citizens are not to be unduly

ess*?purpose o,vto,a,in9 a citizen's righ,s is

-

10. The Federal government has highly limited powers. Excluded from its* powers are any abilities not specifically delegated by •
the Constitution. It is also barred from those powers delegated by not implemented or rescinded by Congress Therefore the
scope of Federal capability is extremely limited. "Executive orders" or "judicial decrees" do not somehow extend the limits of
Federal power. Yet, [Article I, section 8, clause 17] could be misinterpreted to vest the Federal government with unlimited
legislative, judicial, and criminal jurisdiction. That would include the ability to force the plaintiffs Federal criminal statute of
conviction over the entire of his residential State. [Clause 17] was introduced to ensure only that a single State could not be
subject to the collective authority of other States acting as an independent body. It states that the Federal government may only,
"... exercise exclusive legislation in call Cases whatsoever, over such District (not exceeding ten miles square) as may by
Cession of particular States, and the Acceptance of Congress, become the Seat of the Government of the United States and to
exercise like Authority over all PLaces purchased by the Consent of the Legislature of the State in which the same shall be for
the Erection of Forts, Magazines, Arsenals, dock-Yards, and other needful buildings."
The Federal government is limited, by the Constitution, in jurisdiction. It is limited only to: the territorial seat of government (the
District of Columbia), Federal territories, Federal commonwealths, Federal island properties, and Federal enclaves That does
not include the entirety of the petitioner's residential State.
11. Like all other Federal powers, [clause 17] authority must be executed by Congress as described in the following [clause 18]
Otherwise, it remains a dormant power which the defendants could not have lawfully exercised. Without Congress' execution
no Federal officer had the authority to act within territories purchased by or ceded to the Federal government The Constitution
does not allow Federal authority outside of those areas, however, Congress did enact [clause 17] at [40 USC section 31121 as
pertains to the Federal government's limited jurisdiction.
J

12. In fact, thepower for the Federal government to establish jursdiction over enclaves it owns was a dormant power until the
year 1940, when Congress enacted [40 USC section 3112], Prior to that, the Federal government had no authority to establish
jurisdiction over any of the geographical territory of any State - let alone the petitioner's residential State. After it, Congress
permitted the Federal government to maintain authority over enclaves within the States under the conditions that: ,
a) the enclave be purchased from a State for a pressing purpose;
b) the State legislature consent to the Federal government's jurisdiction, and;
c) the Federal government then must accept jurisdiction by filing a "Notice of Acceptance" with that State's governor.
Without meeting these requirements, the Federal government has absolutely no authority over an area.
13. [Adams v. United States, 319 US 312, 63 S. Ct. 1122,87 L. Ed. 1421 (1943)] established that District courts, including the
court issuing the plaintiffs detention order and the court hearing this instant action, have no jurisdiction to detain a citizen unless
they afford the government of that State notice as to the establishment of a Federal enclave. The "United States Supreme Court
Digest, Lawyers' Edition" states in [section 748],
.
"Unless and until notice of acceptance of Jurisdiciton has been given, Federal courts are without jurisdiction to punish under the
criminal laws of the United States [Federal govemment]...United States agencies and authorities may accept exclusive or partial
jurisdiction over lands acquired by the United States by filing notice with the government Of the state, of by taking other similar
appropriate action, and that unless and until the United-States has so accepted jurisdiciton, it shall be conclusively presumed
that no such jurisdiction has been accepted."
folding ^unqualified, as per [18 USC section 7], This does not include property "leased," as in'[United States v. Innue'

14. Any act not in compliance with [40 USC section 3112] is an extra-constitutional exercise of authority. That section states,
"The term ’Federal area’ means any lands or premises held or acquired by or for the use of the United States or any
department, establishment, or agency of the United States’ and any Federal area, or any part thereof, which is located within
the exterior boundaries of any State, shall be deemed to be a Federal area within such State."
Therefore, the respondents must prove that the petitioner's place of: instant "criminal" conduct of suspicion, arrest, transfer,
court, and all detention facilities were all "Federal areas." Otherwise, his due-process was violated. 118 USC section 7(3YI states
that the term "territorial jurisdiction of the United States" means.
_____
______
_ _____
"Any lands reserved or acquired for the use of the United States, and under the exclusive or concurrent jurisdiction thereof, or
any place purchased or otherwise acquired by the United States by consent of the legislature of the State in which the same
shall be, for the erection of a fort, magazine, arsenal, dock-year, or other needful building."
Federal territorial, legislative, executive, and judicial jurisdiction exist only in those areas aforementioned. All Federal judicial
districts, courthouses, and detention .centers must.be comprised exclusively of Federal enclaves - otherwise a persons’
detention is illegal.
16. [28 USC sections 81-131] establish those Federal districts located within the States. However, as per [40 USC section
3112], Federal authority is only to be applied within the geographic locations of the Federal: territories, commonwealths, insular
possessions; enclaves, and the District of Columbia. Furthermore," [28 USC sections 132,134, 645,751,1331, and 1865]
.mandate that, for a person to be detained on the basis of criminal proceedings, that the physical locations of: the Federal
district court, the clerk of court's permanent residence, the United States Attorney's permanent residence, the Assistant United
States Attorney(s) permanent residence(s), the residences of all grand jury members, and the residences of at least four-million
(4,000,000) permanent inhabitants, in the case of a "special grand jury," all be within that lawful Federal enclave. Otherwise, it is
not a Federal judicial district..
17. In order to prove that the petitioner is currently detained constitutionally, documentary evidence proving that this process
was fulfilled is .required. That includes ownership documents, such as titles and land deeds, specifically evincing that all the
locations relevant to the "criminal" proceedings were either Federal enclaves or within them. Such compliance is not
discretionary, it is a fundamental aspect of Federal due-process. Furthermore, written consent by the petitioner’s residential
State must be provided alongside a written "Acceptance Notice" of Federal jurisdiction as applied to that State's government.
18. The defendants hold and have held the petitioner illegally, since his arrest till this day. They are unable to prove, by due
documentary evidence,, that any of the "criminal" conduct, subsequent proceedings, or required residences, leading to and
including the detention itself, were within the bounds of legal Federal jurisdiction. As a result, the Federal government had no
provable authority to apply the petitioner’s statute of "conviction" in or detain him from his residential State. He is unequivocally
entitled to relief.
-O

•XIV. SUBJECT-MATTER JURISDICTION
1. The plaintiff has been deprived of his constitutional and statutory rights since he was arrested up till this day. Despite the lack
of documentary evidence proving that he was detained with requisite subject-matter jurisdiction, those documents' validation, or
furnishing; he was placed in Federal detention. That is a violation of his due-process. In violation of the [US Constitution
Thirteenth Amendment], the indictments used to detain him were never legally drawn and subsequently presented to a proper
court, under oath, by a grand-jury duly impaneled to issue the charges describing the offense against the law. He has not, till
this day, received a true indictment to justify his "commitment" in a Federal institution. The grand-jury's independence and
decision-making process were never constituted to perform their role in committing the plaintiff to detention. He was placed into
the government's custody without the most basic proceedings of the courts.
2. The petitioner asserts that the seminal documents which justify detention simply do not exist in his case, or exist in a form
inconsistent With those laws derived from the Constitution. He is currently held unlawfully. The documents which do exist are
essentially forged to illegally incarcerate him, violating [18 USC section 1623(e)] and [18 USC section 3621(c)]. The procedures
used to detain the petitioner also violated [28 USC section 2071 (b)]. The plaintiff contends that the defendants acted in clear
absence of power as stipulated for in [Article III, ch. 2]. Congress has interpreted [Article III] as an operational guide for the
judicial branch. It is evident that the defendants have exercised constitutionally derived powers in such a way that is illegal.
3. The plaintiff has previously filed other petitioner and motions concerning his.detention, in several courts and with multiple
government agencies. He has requested the documents mentioned herein from: his defense attorney(s), the clerk of courts, the
entire [Freedom of Information Act] process including a lawsuit, and a civil suit. His efforts to utilize the provisions of these
various legal avenues appear to have either been refused, neglected, concealed, or ignored.
*<*•

>■ ■

t

4. Despite all of these attempts, the plaintiff has never been afforded his right to inspect the essential documentary evidence in
question. All of the requested: records, documents, data, negotiable instruments, files, answers, or responses that would
• demonstrate the legality of the plaintiffs detention were never presented upon request, said to be non-existent, or even
commented upon sufficiently. There is no indication that some, or any, of the hearings required to validate them ever occurred.
Disclosure has not been made by the government, which was required for any sort of constitutionally guaranteed vigorous
defense in his criminal case. It has the burden of proof, not the plaintiff, to demonstrate the legality of his detention in the
absence of these materials. The maxim of law indicates that "silence is tantamount to fraud." The plaintiff is a captive-in-error •
without these materials and, indeed, the very difficulty in obtaining them is a separate due-process violation independently
warranting his relief on its' own - regardless of whether or not the documents even exist at this late stage.
5. The petitioner, has filed a "Motion for Disclosure" and a subsequent "Motion to Compel" in his District of "conviction." He
argued deprivation of constitutionally guaranteed due-process under the color of law by Federal officers and agencies whom
failed to obey Congress' dictates, Federal statutes, and the Constitution. Not only did the grand-jury foreperson not sign the
indictment, but many of the essential documents necessary for a valid prosecution were not: docketed on the court's record,
available publicly, or ever furnished to him. He has never been afforded an hearing on these issues wherein evidence could be
presented regarding them, or even a response to them.. He was unable to appeal as no decision was ever filed.
6. Ordinarily, a Federal criminal prosecution is presumed to be initiated by an arrest. That arrest must be based upon a finding
of probable cause, arrest warrant, affidavit of criminal complaint, or indictment. The relevant materials are then presented
before a grand-jury. The grand-jury quorum convenes and must concur upon findings of criminal activity for an indictment to
reach the status of "true-bill." The defendants had no authority to detain the petitioner without that process. These processes
were instituted by the architects of the Constitution so as to protect the masses from partial or vindictive prosecution. Until these
threshold requirements are met, it is not in the pursuit of liberty or justice if a person is detained.
7. Implicitly jurisdictional, the Constitution states, "[n]o person shall be held to answer for a capital or otherwise infamous crime
unless on presentment of indictment by a Grand Jury [of his peers]...." Therefore, the petitioner had a constitutional right to a
grand-jury based indictment. Yet, the record of the court's docket contains no account of such an hearing. The petitioner,
therefore, argues based on the "presumption of irregularity" that he was never actually indicted. In [Ex parte Bain, 121 US 1, 7
S. Ct. 781, 30 L. Ed. 849 (1887)], the Supreme Court held that a person cannot be charged or detained if material complications
abound vis-a-vis the grand-jury’s impaneling or competency in finding the indictment. All proceedings, including incarceration,
derived from such an "indictment" are void.

Appendix I

8. As no valid indictment has ever been produced, the essential elements of [Fed. R. Crim. P. 6(a)] have not been affirmatively
demonstrated. A lawfully impaneled jury of twelve must concur with an indictment, as in [subsection 6(c)], for it to reach the
statute of "frue-bill." The purpose of an independent grand jury is not only to investigate possible criminal conduct, but also to
act as a "protector of citizens from arbitrary and oppressive governmental action." The grand jury's purpose is to "stand
between the prosecutor and the accused," determining the legitimacy of a charge or whether it "is dictated by malice or
personal ill." [Hale v. Henkell, 201 US 42 (1906)] Former Supreme Court Justice A. Scaiia expounds, in [United States v.
Williams, 504 US 36 (1992)], that the grand jury is the equivalent of a fourth branch of government - not to be tampered with by
any other branch.
9. An indictment which is not validated according to the full extent of the law is, in actuality, documentary "information."
Information alone is no basis to detain a citizen. Pursuant to [Rule 7(b)], information filed with a clerk of court cannot perform
the same functions as an indictment. Detaining officers not in possession of an "Indictment Waiver" lack all subject-matter
jurisdiction over an accused. Such information is "virtually meaningless." [United States v. Wessels, 139 F.R.D. 607,609 (M.D.
Pa 1991)] held that a defendant who has not waived his right to prosecution solely on indictment retains his rights, irrespective
of information filings by a United States Attorney. The jurisdictional nature of that waiver requirement is grounded in the [Fifth
Amendment], which requires the government to prosecute felonies by indictment - absent a valid waiver in open court.
10. If a true indictment does exist against the plaintiff, the court would have no need to docket a "waiver of indictment" later.
However, regardless of the docketing of a document entitled "Indictment Waiver," it must be validated in open court in order to
allow prosecution or detention on the basis of information. The text of [Fed. R. Crim. P. 7(b)] clearly appears to provide that an
accused's waiver of prosecution by indictment can only occur after the defendant "in open court" is advised of the nature of the
charge and "the defendant's rights." Facially, the meaning is evident: if the plaintiff in this instant action was not instructed by
the trial judge, as both were physically present in the courtroom, that; he had a constitutional right to be indicted by a grand jury
of his peers, then proceeded to waive it - the plaintiff was entitled to be indicted by a grand-jury. The Advisory Committee's note
reveals the obvious purpose of this [Rule], to contain "safeguards against improvident waivers." Were it at all possible to waive
indictment simply by an attorney's filing, even containing a defendant's signature, then there would be no "safeguard" at all. The
government has yet to provide evidence of a true-bill indictment or colloquy of indictment-waiver to justify detaining the
petitioner.
11. Without an indictment, the courts are barred from issuing "Commitment" orders. In [Gernstein v. Pugh, 420 US 103 (1975)]
the Supreme Court rejected the contention "that the prosecutors' decision to file information is itself a determination to probable
cause that furnished sufficient reason to detain a defendant pending trial connections." The Supreme Court held in [Albrecht v.
United States, 272 US 1, 547 S. Ct. 250,71 L. Ed. 505 (1927)] that an arrest based only upon a US Attorney's information
filings was invalid as the accompanying affidavits were fundamentally defective. Detention under such pretenses violates the
[Fourth Amendment].
12. The plaintiffs allegations are supported by factual evidence, granting him the right to relief. The lack of some, dr all, of the
following documents' disclosure, furnishing, and their nonexistence on the court's docket is presented:
a) All indictments upon which detention is based - duly endorsed by a grand-jury foreperson and United States Attorney, OR;
a) Colloquies of Indictment Waivers in open court;
b) Arrest Warrant;

.

«

c) Affidavit of Criminal Complaint;
d) Summons upon Complaint;
e) Letter of Concurrence Certificate;
f) Affidavit of Probable Cause Hearing;
•t

g) Grand jury transcripts, ballot, and/or record for inspection.
13. Such an absence of complaint means that the essential facts constituting detaining jurisdiction are still, to this day, unstated.
According to [Fed. R. Crim. P. (3) and (4)], the purpose of such a complaint is to enable the appropriate magistrate to determine
whether probable cause exists to support detention [Giordenello v. United States, 357 US 480,2 L. Ed. 2d 1503, S. Ct. 1254].

-Pursuant to [Article III], the [Fourth] and [Fifth Amendments], failure to file a "true-bill" indictment means that the presumption of
a lack of jurisdiction is never overcome. The plaintiffs defense attorney did not object to the lack of a true-bill indictment, despite
no indication ever being given that it was actually validated. A prosecutor simply drafting a document and entitled it "Indictment"
cannot be a sole justification for detention. The entire "true-bill" validation process must be thoroughly evinced to the courts and
the defense in a criminal case. Inability to do so leads to ah automatic presumption that due-process was violated; as the onus
of proof regarding a crime is upon the claimant. The plaintiff should have been assumed innocent until proven, beyond all
reasonable doubt, guilty.
14. The defendants had no authority to detain the plaintiff on a "capital or otherwise infamous crime unless on presentment of
indictment by a Grand Jury.” Doing so is brazen overreach and speaks to vigilante abuse of power. In [18 USC (former) statute
687 and 3771] Congress detailed criminal procedure prior .to and including a verdict. The Supreme Court ruled in [Midland
Asphalt Corp. v. United States, 489 US 794,103 L. Ed. 2d 879 109 S. Ct., 1494 (1989)] that the lack of an indictment based in a
grand-jury validation gives rise to a categorical right not to be detained.
15. As stipulated for in [18 USC sections 241 and 242], the plaintiffs rights were violated as a matter of fact and law. The
defendants abducted him, circumvented constitutionally guaranteed due-process of law, clearly failing to comply with the
highest laws and fundamental principles of the land. They abused the [Authority of Judicial Conference] policy and the [EGovernment Act (2002)] which allow redaction of signature in particularly sensitive circumstances, providing a high bar to
redaction. The plaintiffs detaining indictments were never legally drawn per the [Administrative Procedures Governing Filing
Service and Electronic Means, section II, A5 @ ii (April 2008)]
16. A captive is not required to provide evidence that he needs essential court documents. Basic constitutional rights do not
need corroboration by some extraneous source besides the law. [t is irrational to assert that a detainee will somehow have a
provable premonition regarding a due-process error and that that mystical foreknowledge will be validated by the disclosure of
documents. That is clearly not the intent of the law. The defendants were required to provide evidence justifying their detaining
the plaintiff, furnishing him with sufficient copies of all true-bill documentation. There is no "evidence" in the sight of the law
b6sidos thst.
17. Settling this [section 2241] action is required as the plaintiff has filed motions in his criminal case and has two ongoing civil
lawsuits pertaining to the issues raised herein. [Douglas Oil Co. of California v. Petrol Stops Northwest, 441, US 211 60 L Ed'
2d 156, 44 S. Ct. 1667 (1979)] determined that material sought to prevent possible injustice in another judicial proceeding has
greater precedence than any asserted "need" for continued secrecy. The aversion of the plaintiffs defense counsel, the
prosecution, the defendants, and various agencies of the government in divulging these documents and documentary evidence
of the court's hearings to validate them provide clear proof that the plaintiff is detained illegally.
18. The plaintiff is entitled to relief as the court and the defendants had and have no subject-matter jurisdiction to justify

XV . CASE PRECEDENT SUBVERSION of the CONSTITUTION and LAWS
1. The defendants did not have the authority to detain the petitioner as they knew that his "conviction" was not based upon the
Supreme Law of the Land. Rather, it was based upon unofficial dicta. No evidence exists in the District Court's record justifying
reliance or any duty to rely on "case precedent/law".as supreme law; superseding the Constitution, United States Code, the
Code of Federal Regulations, and the law of the petitioner's residential State. A detention cannot be based on the dictates of
judicial "legislation" as derived from an informal "judicial Constitution." Detaining the petitioner under such pretenses means that
the presumption of an absence of jurisdiction was never overcome.
2. The defendants lacked jurisdiction to detain plaintiff until the default state of lacking jurisdiction is overcome. It can only be
overcome with evidence ultimately deriving from the Constitution. The onus of proof rests squarely with the respondents. They
have the burden to demonstrate that the plaintiff is detained under the "controlling law" as established by the Constitution.
However, the plaintiff argues that he is detained without due judicial process as he is detained on the basis of a law-form not
stipulated for by the Constitution. He argues that he is detained upon the basis of "case precedent" which, in addition to being
an illegitimate grounds for detention, plainly contradicts the Constitution.
3. Case precedents are un- or published opinions, orders, decrees, and judgments, filed as public record for the Federal courts
of the judicial branch. As a class, it includes those issued by the: Supreme, Appeal, Tax, Bankruptcy, Claims, International
Trade, and District Courts. If such issuances form any significant basis upon which the plaintiff was detained or any of them
referenced contained content contradicting the Constitution - then documentary evidence must be provided as to their authority
and justification in utilizing them. The Constitution does not provide that a criminal action may be filed pursuant to such judicial
decrees, not allotting them any power of detention.
4. The Constitution does not specifically provide for power vested in the judges of the courts. They may not issue binding law by
any judicial "decree." However, the plaintiff is detained as if such decrees are true legislation, and that they are sources in some
parallel "judicial Constitution." Furthermore, no evidence exists that such judicial power, were it to exist, would be selfimplementing. Congress must carry all powers into execution as per [US Constitution Article I, section 8, clause 18]. Congress
has never vested judges with such power.
5. Judges are subject to the "Supreme Law of the Land" as per [Article VI, clause 2] and are all bound - by solemn oath - to
support the Constitution as per [Article VI, clause 3], Yet, the judge presiding over the petitioner's criminal case disrupted the
implementation of the Constitution by issuing, by judicial decree, an order for the plaintiff to be detained. That order was only
issue pursuant to case "law." By doing so, the judge violated [Federal Rule of Evidence 605]. He had a mandatory duty to
accept self-authenticating documentary evidence as true and correct, in the absence of any contrary evidence, as per [28 USC
section 2248], The Constitution cannot be assumed dormant with another law dominant in the absence of perspicuous proof.
The judge was required not to detain the plaintiff without a "Finding of Facts" including the basis of any conclusions at law, as
per [Federal Rule of Civil Procedure 52(a)]. No "Judgment and Commitment" remains valid in the absence of such a finding.
6. It is a non-discretionary duty of the presiding judge in this instant case to grant the petitioner's writ as per [28 USC section
2241]. No factual dispute exists regarding: the petitioner's statement of facts or documentary evidence. They conclusively prove
that the plaintiff is being subjected to imprisonment by the respondents on false grounds and in violation of the Constitution.
That is as he is held under the pretenses of "case law." Such "case law" has never beeri enforceable and cannot ever be
enforced by mandamus or otherwise. "Case precedents" are binding only upon the parties in a particular action and cannot
serve as any basis to detain the plaintiff, especially in contradiction of the Constitution.
7. The petitioner had and retains his inherent due-process, and indeed fundamental human right, to know - with full disclosure what the court considered the "Supreme Law of the Land.” He lives in this nation upon a social contract validated through his
obedience to that "Supreme Law." He can only violate that contract, and thereby be detained, if he violates that "Supreme Law."
The Supreme Law of the United States can only be assumed to be the Constitution and its’ derivative laws. Therefore, arbitrarily
adding "case law" as another source of legislation fundamentally abridges the plaintiffs due-process and violates the social
contract. That is an offense against the Constitution, which states,
"This Constitution and the Laws of the United States which shall be made in Pursuance thereof; and all treaties made, or which
shall be made, under the Authority of the United States, shall be the Supreme Law of the Land, and the Judges in very State

Appendix J

shall be bound thereby, any thing in the Constitution or Laws of any State to the Contrary withstanding."
No provision exists of law "created" by case precedent, which is actually a "Thing...Contrary" to the Supreme Law.
8. The defendants hold the plaintiff under case "law" whilst being bound to hold him only under the Constitution for a violation of
it. Such detention is, in fact, its' own violation of the Constitution. [Article VI, clause 3] states,
"The Senators and Representatives before mentioned, and the Members of the several State Legislatures, and all executive
and judicial Officers, both of the United States and of the several States, shall be bound by oath or Affirmation to support this
Constitution...."
[Article II, section I, clause 8] prescribes the oath required of the president while [5 USC section 3331] prescribes the oath
required of all officers and employees of the Federal government. It includes subsequent affidavits of verification required to
hold an office of honor, trust, and profit in any branch of the Federal government. [28 USC section 453] prescribes the oath of
all Federal judges. If the judge in the petitioner's criminal proceedings upheld "case precedent" then he fundamentally
contradicted the Constitution and should have been mandatorily disqualified immediately. The petitioner argues that that is so.
9. [Article I, section 1] vests all legislative power in Congress. [Article III, section 1] only vests judicial power in the Supreme
Court and in subsequent inferior courts ordained by Congress. No evidence exists of any constitutional provision vesting the
judicial branch with legislative powers of any kind or sort. The [Tenth Amendment] and [Article I, section 8, clause 18] stipulate
that the Federal government only has powers specifically delegated to it, in writing, by the Constitution. Even those powers
remain dormant until Congress voluntarily executes them. No implied constitutional powers exist, nor may any new powers be
created, even by "necessity," whether Congress voluntarily attempts to execute such powers or not.
10. [Article VI, clause 2] does not identify "case precedents" as an element or derivative of "Supreme Law." No constitutionaf
provision establishes the permissibility for the judge in the petitioner's criminal case to have detained him on the basis of "case
law," or even to utilize it in the proceedings as evidence to substantiate the plaintiffs accusations. Were such the case, the
nation would be secretly run on a rogue, de facto, judicial "constitution." However, even that would be self defeating according
to [Adams v. United States, 319 US 312, 63 S. Ct. 1122, 87 L. Ed. 1421 (1943)].
11. The plaintiff in this action will assume, for the sake of argument, that "case law" is binding. Therefore, the precedent
established in [Adams v. United States] would have to be binding in his criminal case. The Supreme Court established in that
case that no district court has the authority to detain a citizen, such as the plaintiff, under a Federal criminal statute unless it
was perpetrated within the confines of a Federal enclave (as conclusively proven in section "XIII. Federal Criminal and
Territorial Jurisdiction" of this motion). An accused cannot be charged Federally for an act committed within a State which was
not, at the time of the instant infraction, established as such an enclave.
12. Therefore, refusing to concede the argument presented this section ("XV . Case Precedent Subversion...) automatically
requires the acceptance of the argument in section "XIII. Federal Criminal..." of this motion. There are no double standards in
the law. If the defendants claim jurisdiction to detain the plaintiff under one "case law precedent" then the "case law" of [Adams
v. United States] must also be applied - especially as that one actually corroborates the Constitution whereas the case "law"
used to detain the plaintiff contradicts it. There cannot be some selective application of "justice" in a nation founded upon
"liberty and justice for ail."
13. The erroneous basis upon which the plaintiff is detained arises from a misconception regarding a Supreme Court precedent.
The judge in the plaintiffs criminal case only asserted authority to legislate and authority to accept the "legislation" of other
judges based upon [Marbury v. Madison, 5 US (1 Cranch) 1 37, 2 L. Ed. 60 (1803)]. The misinterpreted excerpt of that case
reads,
"It is emphatically the province and duty of the judicial department to say what the law is."
However, that applied only to a dispute regarding the constitutionality of Congressional Acts. Indeed, that Court specified,
"If two laws conflict with each other, the courts must decide on the application of each."
That cannot be interpreted to vest judges with some independent legislative authority in contradiction to.the plain language of
the Constitution. Doing so would violate the plaintiffs constitutionally-guaranteed due-process rights.

el

1.

mcmmm t© mcas.c®ate the pehtionm dugaixy

The aforementioned jurisdictional violations did not occur simply out of oversight or accident.

The petitioner claims that the respondents are subjecting the petitioner to unlawful detention in violation
of the Constitution entitling the petitioner to relief. That is due to their - in addition to the judge
presiding over the case, the prosecutor, the defense attorneys), and all other court functionaries’
incentives to incarcerate the petitioner irrespective of legality. The reasons for that are multiple, ultimately
returning to their profit and gain as long as the petitioner is detained. That creates an unconstitutional
conflict of interest, which not only violates his due-process rights, but also mandatorily disqualifies all the
aforementioned government agents from continuing to detain the plaintiff.

2.

Many personal incentives exist for the defendants and the other aforementioned government

agents to have the plaintiff detained irrespective of legality. The legal status of the plaintiff as a “prisoner”
carries important yet understated historical baggage. The [United States Constitution, Thirteenth
Amendsfoent, Sections 1 and 2] states,

Neither slavery nor involuntary servitude, except as a punishment for crime whereof the
party shall have been duly convictedshall exist within the United States, or any place
subject to their jurisdiction. Congress shall have power to enforce this article by appropriate
legislation.

1
Appendix K

3.

The Constitution provides a legal basis for slaveiy. Slavery was the economic backbone of the

newfound Americas for nearly three-hundred years and was ubiquitous in the original British colonies.
The term “slave” was not particularly prominent in American jurisprudence before or after the passing of
the [Thirteenth Amendment], though “unfree persons” are discussed. Under the “Three-Fifths
Compromise”, [US Constitution, Article I, Section 2, Clause 3]> Congressional representation was
allocated on the basis "the whole Number of free Persons" and "three fifths of all other Persons". Slaves
were considered to be only sixty-percent (60%) human [Dred Scott v. Sandford (1.857)]. For purposes of
the [US Constitution’s Fifth Amendment] — which states that, "No person shall... be deprived of life,
liberty, or property, without due process of law" — slaves were understood to be “property.”

4.

Due to the economic conditions of the northern States following the Declaration of

Independence, most of them saw the immediate emancipation of all slaves. No Southern state did so, and
the slave population of the South continued to grow, peaking at almost 4 million people in 1861. During
this time abolitionism became vogue. As colonizers of European descent continued a deplorable expansion
Westward, the issue of slavery in its new territories became a dominant national issue. The Southern
position was that slaves were property and therefore could be moved to the territories like all other forms
of property. Tensions between North and South continued to rise over the subsequent decade.

5.

In a stroke of political genius, president Abraham Lincoln, an admitted white supremacist, enacted

the “Emancipation Proclamation”. The Proclamation executive order issued by the president on September
22,1862, and effective as of January 1,1863. It changed the legal status, under federal law, of more than
3.5 million enslaved persons in the Confederate states from slave to free. Slaves in the north remained
enslaved. Ultimately, the Union victory brought the proclamation into effect in all of the former

2

f ‘

Confederacy. The remaining slaves in the north were not freed until either by state action or the
[Thirteenth Amendment].

6.

Slavery may be defined, “a person who is the legal properly of another and is forced to obey

them.” Legally, the petitioner is currently enslaved. Slavery is a power construct designed to benefit one
party more than the other. Oftentimes, slavery is for the purpose of financial benefit. The respondents
have tire petitioner enslaved for a particular financial benefit they seek to gain, which created an
unsurmountable bias in his criminal prosecution. He was not enslaved by an impartial party, rather, he
was abducted and is currently held in bondage by a party with an express financial interest in his captivity.
Slavery may be in the benefit of a particular corporation, such as Federal Prison Industries, also known by
its trade name UNICOR, as founded in 1934. It is is operated by the Department of Justice (DOJ) and is a
wholly owned government corporation which employs twenty-five percent of the Federal Bureau of
Prisons’ sentenced inmate population.

7.

However, the plaintiff will discuss a primary incentive: their interest in the plaintiffs "judgment

bond." When the plaintiff was judged and "committed," meaning detained, a financial bond was issued. A
bond is a certificate of a written agreement issued by the government which promises to repay money
borrowed at a fixed rate of interest after a stated period of time, sometimes with conditions of certain
objectives to be completed. A penal bond is a “bond promising to pay a named sum of money (the
penalty) with a condition underwritten that, if a stipulated collateral thing, oilier than the payment of
monejr, be done of forborne, as the case may be, the obligation shall be void.” [Black’s Law Dictionary,
2nd. Ed., pg. 886] The plaintiffs penal-judgment bond pays: dividends, annuities, and residuals to the:
judge, prosecutor, defense attorney, all other court functionaries in his case, and the defendants. This
provides financial profit to those involved in the petitioner's "conviction" and incarceration.

3

8.

The respondents engaged in a violation of the plaintiffs constitutional rights by detaining him

while knowing of tire true "Supreme Law of the Land" and their personal conflicts of interest regarding
applying it They entered the sovereign territory of a foreign State outside all Federal territory and
jurisdiction, fabricated a criminal case, and arrested him without any true-bill documentation - all under a
District judge with a. personal vested interest in his detention. The defense attorney of record never
disclosed to the petitioner that tire provisions of [Federal Rule of Criminal Procedure 11(c)(1)(C)] bound
tire presiding judge over his case to the exact terms of an agreed-upon plea agreement

9.

The sentencing court was operating under Statute Law. A “Statute” is defined in Black’s Law

«vDictionary, Fourth Edition, as a kind of bond or obligation of record, in reference to a “statute merchant”
or “statute staple".

"A popular- form of security after 1285 . . . was the . . . statute staple’ - whereby tire
borrower could by means of a registered contract charge his land and goods without givingup possession; if he failed to pay, the lender became a tenant of the land until satisfied ...
the borrower under a statue or recognizance remained in possession of his land, and it later
became a common practice under the common-law forms of mortgage likewise to allow the
mortgagor to remain in possession as a tenant at will or at sufferance of the mortgage.”
Q.H. Baker, An introduction to English Legal History 354 (3d edition 1990)]

A "Statute-merchant" is defined as a security for a debt acknowledged to be due, entered into before the
chief magistrate of some trading town, pursuant to by which not only the body of the debtor might be

4
i; '

imprisoned, and his goods seized in satisfaction of the debt, but also his lands might be delivered to the
creditor till out of the rents and profits of them die debt be satisfied.

10.

Irrespective of plea, die "guilty" verdict in the plaintiff1s case imposed not only a sentence of

imprisonment and a fine. It also validated a "penal judgment bond." The plaintiff in the petitioner's
criminal case, die UNITED STATES of AMERICA, became a "judgment'-creditor upon the petitioner’s
"conviction." The defendant in that case, the petitioner in tiiis one, became a "judgment"-debtor- despite
duly paying his court-imposed fines. All parties working for the UNITED STATES in the petitioner's
criminal case, in particular the court functionaries and the defendants, all became creditors to the
petitioner's unannounced financial "debt." As the petitioner's sentence was in excess of three-hundred and
sixty-five (365) days, a security in favor of die United States Federal government was instantly issued.

11.

That security was established as a surety and a collateralized bond. A surety is a security against

loss, a guarantee that a promise will be fulfilled, and, in this case, an agreement that the petitioner became
a ward of the United States. Hereinafter, it will be referred to as the petitioner's "penal-judgment bond.”
The bond indicated a particular "penal amount" granting it monetary value proportionate to the
petitioner's length of sentence. That monetary value was validated through a surety company and "clearing­
houses, such as Brown Brothers Harriman, the Trust Company owned in Delaware. Brown Brothers
Harriman Co. is a wholly owned subsidiary of Brown Brothers Harriman, Incorporated. Brown Brothers
Harriman, one of die largest financial companies in the United States, cleared the penal judgment bond
and then bundled it in a marketable fund.

12.

The information filings were a bill of exchange, or an acceptance of honor. Such acceptances

involve negotiable instruments, as they are accepted for payment. Therefore, the petitioner became the

5

fiduciary trustee, giving him responsibility to discharge all the debts as an operation of law. To monetize
the bond, as it represents a debt, a principle must exist. Principal is where venue lies, it is capital and
interest, or revenue. The principal has the primary obligation to pay or discharge any instrument
presented for acceptance.

13.

The marketable fund containing the petitioner's penal judgment bond was placed on sale on a

public exchange Deutsche Bank, GmbH. It was marketed by the company Fidelity, which acted as the
marketing agent for the fund. The United States Department of the Treasury retains the CUSIP
(Committee on Uniform Security Identification Procedures) number of the plaintiffs penal-judgment bond
for internal monitoring, and will not divulge it regardless of the plaintiffs attempts. The sentencing judge
on the plaintiffs criminal case remains the bond's administrator while the court's attorneys are its'
fiduciaries. A fiduciary is a person entrusted with something of monetary value, being the plaintiff in this
scenario.

14.

Some of the funds generated by the petitioner’s illegal detention are deposited in a “Court

Registry Investment System (CRIS).” A CRIS is an interest-bearing cash management tool administered
by the Administrative Office of the U.S. It has four explicit objectives: to protect principle, to ensure
enough liquidity of court assets, to purchase securities, and market rate of return earnings. The CRIS
registry funds are pooled and used to purchase U.S. Treasury securities. These securities are held to
maturity, and the portfolio is structured so that enough securities mature each week to pay out sufficient
funds. Funds are invested in Government Account Series (GAS) securities under the Bureau of Public
Debt's Federal Investment Program. Money sent to the Court for deposit into the Court's Registry Fund
requires a court order, such as a “judgment and Commitment”.

6

15.

These exchange traded funds for prison systems sell their stock and shares on prominent stock

exchanges. Some of the value goes into prison real estate investment trusts and prison reality trusts, which
are exempt from corporate taxes, so long as they meet certain conditions. One important condition is they
distribute ninety-five percent (95%) of their income to shareholders, a provision making REITs attractive
to investors. These trusts often partner with the likes of Fortress Investment Group LLC, the Blackstone
Group, and Bank of America. Fortress Investment Group is a global alternative investment and asset
management firm founded in 1998 with approximately $11 billion in equity capital. The Blackstone group
is a private investment banking firm and describes itself as a leading global investment and advisory firm".
The Blackstone Group was founded in 1985 by a group of four, including Peter G. Peterson and Stephen
A. Schwarzman. Blackstone has developed strategic alliances with some of the largest and most
sophisticated international financial institutions. In addition to AIG, they include Kissinger Associates,
Roland Berger Partner, GmbH, and Scandinaviska Enskilda Banken. The company’s Blackstone
Alternative Asset Management unit handles $1 billion in hedge funds for pension giant CalPERS.

16. A REIT is a company that buys, develops, manages and sells real estate assets, REIT’s allows
participants to invest in a professionally managed portfolio of real estate properties. REIT’s qualify as pass
tlirough entities, companies who are able distribute the majority of income rash flows to investors without
taxation at the corporate level (providing that certain conditions are met). As pass through entities, whose
main function is to pass profits on to investors, a REIT’s business activities are generally restricted to
generation of property rental income. Another major advantage of REIT investment is its liquidity (ease of
liquidation of assets into cash), as compared to traditional private real estate ownership which are not veiy
easy to liquidate. One reason for the liquid nature of REFT investments is that its shares are primarilytraded on public stock exchanges.

7

17.

Long term investor corporations beneficially own millions of shares of these bonds. Stock is

distributed to existing shareholders, and potentially higher future returns, along with generating millions
in cash flow. These corporations provide life and health insurance products, individual annuities and
group employee benefits, and offers to individuals, businesses and pension plans a varieiy of investment
products and services.

18.

The plaintiff remains the collateral against his penal-judgment bond. A collateral asset is

something offered to a creditor as a security against a loan. In this instance, the loan is encompassed in
the bond. As a result, the petitioner's detention is a revenue source for the respondents - creating an
unconstitutional conflict of interest and explaining the underlying cause of his due-process being totally
dissolved as demonstrated in "Part II" of this writ. The penal judgment bond was issued in the plaintiffs
name without his knowledge, consent, or authorization. To avoid a surely requirement in order to
guarantee the plaintiffs penal-judgment bond, issued as a direct result of his detention as signified by the
"judgment and Commitment," the plaintiff was remanded to the custody of the defendants. He was
housed in a Federal Bureau of Prisons facility under the direct authority of the respondents. This renders
him collateral for the penal-judgment bond issued. As such, the bond is a negotiable security instrument
in favor of the plaintiff in the relevant criminal case: the UNITED STATES of AMERICA.

19.

After being remanded to the custody of the defendants, the plaintiffs penal-judgment bond was

submitted to the bond market for monetary remuneration. The funds received from the sale of tie penaljudgment bond bundle which included the plaintiffs bond was then deposited in an hedge fund for
investment purposes. The defendantsiave a direct monetary interest in the plaintiffs provably illegal
detention. However, this incentive would represent a due-process violation even if it were the only
jurisdictional, material, legal, or factual issue in favor of the plaintiff.

20.

Based on the number of months imposed as a sentence upon the plaintiff, the court functionaries

and tire defendants receive payments of dividends, annuities, and/or residuals - or a combination of those.
They continue to receive them either directly or indirecdy, as offsets against accounts established for that
purpose by the Treasury Department or pensions and retirement accounts. The court functionaries and
defendants also profit dirough interests in specific non-governmental organizations (NGOs) to which the
plaintiffs bond contributes. The financial structure of diis scheme is quite complex and intricate.

21.

The defendants and die court functionaries will continue to profit from die plaintiffs penal-

judgment bond unless he has his criminal record totally expunged, an unlikely prospect, or dies. The
judge in his case was incentivized to over-sentence die plaintiff in pursuit of a particular moneiaiy bonus
he would receive when his total imposed sentences upon all "convicts" exceeds one million (1,000,000)
years. The plaintiff was denied any disclosure that all parties, besides him, would receive personal benefits
were he incarcerated and that that benefit was increased proportionately with the length of incarceration.

22.

In addition to die District Judge; officers of the Executive department/branch, including the

respondents, the sitting USAG at the time of the plaintiffs criminal case, the detaining USAG, the
prosecutors, the defense attorneys), and all other court functionaries, also receive collateral benefits as a
result of die issuance of the plaintiffs penal-judgment bond. The following entities and their employees
benefit financially from penal-judgment bonds:

®

Biometric Consortium

®

Border Research and Technology Center (BRTC)
Bureau of Alcohol, Tobacco, and Firearms (BATF)
9

®

Corrections Program Office (CPO)

«

Counterdrag Technology Assessment Center (CTAC)

©

Drug Enforcement Administration (DEA)

©

Federal Bureau of Prisons (FBP)

*

Federal Prison Industries (operated by DOJ); also known as UNICOR

®

Immigration and Naturalization Service
National Institute of Corrections (NIC)

®

National Institute of Justice (NIJ)

©

National Law Enforcement and Corrections Technology Center (NLECTC)

©

National Technical Information Service (NTTS)
Office of Correctional Education (OVAE)

®

Office of Drug Control Policy (ODCP)

©

Office of Law Enforcement Standards (OLES)

®

Office of Law Enforcement Technology Commercialization (OLETC)

®

Office of National Drug Control Policy (ONDCP)

®

Office of Science and Technology (OST)

«

Space and Naval Warfare Systems Center, San Diego (Navy SSC San Diego)

®

Southwest border High Intensity Drug Trafficking Area (HIDTA)

•

UNICOR

®

U.S. Customs Service

®

U.S. Department of Defense (DOD) / Biometric Management Office (BMO)
10

\

U.S. Department of Homeland Security / border and Transportation Security Directorate (BTS)
»

U.S. Department of Justice (DOJ)

«>

U.S. Paroie Commission

«>

Non-Governmental Entities

® Alternative Monitoring Services
® American Correctional Association
® American Legislative Exchange Council (ALEC)
e

“Bed brokers”
BI Inc. (Biometric Systems)

m

The [Biometric Foundation]

®

Bobby Ross Group
Capital Correction Resources

®

Cornell Corrections

®

correctionalnews.com
coiTections.com

6

Corrections Corporation of America (CCA)

®

Corrections yellow Pages

6

Dominion Management

®

Dove Development Corporation

®

Earl Warren Legal Institute

® Federal Extradition Agency (private)
11

®

General Security Service
Government owned/contractor operated
Iridian Technologies, Inc. (formerly IriScan, Inc.)
Juvenile and Jail Facility Management Services

The Federal Reserve system also receives additional financial benefits from the plaintiffs bond. It
multiplied the value of the penal-judgment bundled fund in which the plaintiffs bond is held for the
purpose of "benefitting humanitarian relief programs," in reference to the petitioner being incarcerated.
The fund was thereby enhanced in value then moved through the World Bank with funding provided by
the International Monetary Fund.

23.

All of this was ostensibly done to "reduce the balance of payment deficits or foreign trade

deficits." It guaranteed that the plaintiffs detention would illegally benefit the Federal Reserve. Under [28
USC section 455(bX4)] and [28 USC (Appendix) CANON 3(C)(1)(c)), this scheme warranted the
automatic disqualification of the District court's jurisdiction, the presiding judge, the prosecutor, and the
defense attorney from the plaintiffs criminal proceedings. [Section 455(b)(4)] states, to wit,

"(a) Any justice, judge, or magistrate of the United States shall disqualify himself in any
proceeding in which his impartiality may reasonably be questioned....
(b) He shall also disqualify himself in the following circumstances: (4) He knows that he,
individually or as a fiduciary, or his spouse or a minor child residing in his household, has
a financial interest in the subject matter in controversy or in a party to the proceeding, or
any oilier interest that could be substantially affected by the outcome of the proceeding."

12

All the aforementioned were mandatory disqualified from accepting jurisdiction or authority over the
plaintiffs criminal case and detention. As such, all subsequent proceedings, including that detention,
are
fundamentally void.

24.

They had no authority to even summon a grand-jury, notwithstanding the myriad other defects in

the plaintiffs detention. [18 USC ch. 11] clearly describes the invalidity of proceedings based upon
conflicts of interest. The plaintiffs inherent rights were violated without due authority, jurisdiction, or
process - for various forms of personal gain in addition to benefits of his penal-judgment bond. The
defendants have detained the petitioner illegally since his arrest till this day. They are unable to prove by
documentary evidence that they did not possess conflicts of interest. The plaintiff evidences through
material facts that they did. As a result, the defendants had no authority or jurisdiction to detain the
plaintiff. He is entitled to relief.

13

XVII. VERIFIED MATERIAL FACTS STATEMENT
1 . The following material facts supplement the plaintiff-petitioner's claim statements in "Part II" of this writ. The petitioner hereby
affirms and declares under penalty of perjury, pursuant to [28 USC section 1746], that the following facts are true and correct to
the best of his: personal knowledge, understanding, and belief. They are his free act and deed. He is in proper person of
maturity, sound mind, and competent to testify. ■
a) FACTS PERTAINING to SECTION XII.

1. The petitioner, after due attempts and exertion of resources, can find no evidence whatsoever of any provision of the [United
States Constitution] at [Article II] or elsewhere, vesting anyone, besides the duly-elected President of the United States with
inherent executive power.
’
2. The petitioner does find that the provisions of the [Tenth Amendment] and [Article I, section 8, clause 18] limit the scope and
purpose of Congressional legislative powers solely to implementation of [Article I, section 8, clauses 1-17] in Congress and the
other powers vested by the Constitution in the Federal government. This includes: the president, legislature, and judiciary. The
plaintiff can find no evidence to the contrary.
3. The petitioner finds that the Cpngressional.acts.as published in [3 USC],. [5 USC section 101], and elsewhere, as pertain to
the executive branch, exclusively implement executive power only in the President. He can find no evidence to the contrary.
4. The petitioner can find no evidence of any constitutional provision vesting Congress with the power to establish executive
sub-branches or departments, independent the Executive branch establish by [Article II] and the President. Furthermore, the
petitioner can find no evidence of any constitutional provision vesting Congress with power to establish Department Heads for
the executive branch and vest them with independent executive power, not directly delegated by the Executive branch and the
President - thereby subjecting the President to the authority of such department heads, as per [5 USC section 101].
5. The petitioner does find that all [Article II] powers vested by the Constitution - carried into implementation by [3 USC], [5 USC
section 101], and elsewhere - as pertains to the executive branch and the Department of Justice at [28 USC part II] and,
specifically, [28 USC section 501] are dormant. They remain dormant until the sitting President issues a written "Delegation
Order," with the consent of the Senate, and thereafter publishing it in the Federal Register. That order is the only means by
which [Article II] power may be delegated. The petitioner can find no evidence to the contrary.
6. The petitioner finds that detaining accused or "convicted" citizens is an exercise in executive power. The petitioner finds that,
unless the President issued such a written "Delegation Order" for the purpose of delegating his exclusive executive powers
with congressional implementation as per [28 USC part II], with regards to the Executive sub-branch the "Department of
Justice" and its' head (the United States Attorney General at the time of the plaintiffs detention), that the defendants lack any
authority as to executive power whatsoever. He can find no evidence to the contrary.
7. The petitioner find that, unless the President issued such an "Order," that the defendants lacked any authority to enforce
executive power or jurisdiction over the petitioner. That included the functions specified in [28 USC sections 514-520] pertaining
to the US Attorney General to act through the defendants. As such, the petitioner finds that the respondents had no authority to
subject the petitioner to: investigation, criminal complaint, indictment, arrest, prosecution, or detention. He can find no evidence
to the contrary.
8. The petitioner can find no evidence of any written "Delegation Order" permitting the defendants to act with [Article II]
executive power. No evidence exists to substantiate the legality of the plaintiffs detention or to defeat the presumption of his
actual innocence. The petitioner finds that the defendants are subjecting him to illegal incarceration. He can find no evidence to
the contrary.
b) FACTS PERTAINING to SECTION XIII.
1. The petitioner, after due attempt and exhaustion of resources, cannot find any evidence to support that the defendants had
the requisite: unlimited, extraterritorial, legislative, judicial, executive, and criminal authority to apply the plaintiffs Federal

Appendix L -

, criminal siaiuie ot conviction over me eiiuiety ui ms lestuenuai oiaie.

2. The. petitioner does find that the [Constitution Article I, section 8, clause 17], [Tenth Amendment], [18 USC section 7], [4 USC
section 110(e)], and [40 USC section 3112] limit Federal jurisdiction exclusively to the Federal: geographical seat of government
(Washington, DC), territories, commonwealths, insular possessions, and enclaves. The petitioner does find that he did not
commit the instant conduct deemed an "infraction" on any of the aforementioned Federal areas. He can find no evidence to the
contrary.
3. The petitioner can find no evidence of constitutional provisions granting the defendants jurisdictional authority beyond those
Federal areas. He finds that, in the absence of such evidence, the defendants failed to prove their claim to jurisdiction or
overcome the presumption of the petitioner's actual innocence. Therefore, the plaintiff finds that the defendants are subjecting
him to illegal incarceration. He can find no evidence to the contrary.
c) FACTS PERTAINING to SECTION XIV.
1. The petitioner, after due attempt and exertion of resources, cannot find any evidence proving that he was detained with the
requisite subject-matter jurisdiction. He cannot find the documents validating the proceedings of the court or any indication that
those proceedings occurred. He cannot find any evidence that the "indictment(s)" used to detain him are anything more than
information filings, as no evidence exists of a sworn grand-jury duly impaneled to validate an indictment. He does find that
information filings do not have the same charging or detaining functions as an indictment. He can find no evidence to the
contrary.
2. The petitioner finds that the seminal documents used to justify his detention simply do not exist or exist in a manner
inconsistent with those laws derived from the Constitution, j^e also finds that the grand-jury foreperson never signed the
indictment of his "conviction." He can find no evidence to the contrary.
3. The petitioner can find no evidence or indication that a grand-jury hearing ever occurred. He does find that an information
filing alone is no basis to detain, judge, sentence, or commit a citizen to custody. He finds that the defendants lacked an
"Indictment Waiver" filed in open court - the only means by which the indictment process may be circumvented. He cannot find
a colloquy of indictment-waiver. He cannot find any evidence to the contrary.
4. The petitioner cannot find true-bill versions of: any indictments upon which his detention is based, duly-endorsed by their
grand-jury foreperson and United States Attorney: colloquies of indictment-waivers in open court; an arrest warrant; an affidavit
of criminal complaint; a complaint summons; a letter of concurrence certificate; an affidavit of probable cause hearing; grandjury transcripts, ballot, and/or record for inspection. He does find that he was legally entitled to inspect all of these documents.
He can find no evidence to the contrary.
5. The petitioner finds that the lack of those documents' furnishing to him deprived him of-his constitutional right to a vigorous,
well-informed, defense and represent a fundamental violation of due-process - regardless of their existence at this stage. The
. petitioner also finds that inability to produce those documents leads to a failure to overcome the presumption of irregularity, a
second due-process violation. He can find no evidence to the contrary.
6. The petitioner finds that the defendants are subjecting him to constitutionally unlawful detention. He can find no evidence to
the contrary.
*
d) FACTS PERTAINING to SECTION XV .
1. The petitioner, after due attempts and exertion of resources, finds that his detention is based, to a significant degree, upon
the rulings derived from "case precedent." However, the petitioner can find no evidence that those involved in his "criminal
case" had/have the authority or duty to rely upon or utilize in any sense "case law" or "case precedent" as Supreme Law. By
utilizing it as Supreme Law, and "controlling law," they superseded the Constitution, United States Code, and the Code of
Federal Regulations.
2. The petitioner can find ho evidence that the Constitution vested the legislature or judiciary with any power to create a parallel
"judicial Constitution" or to engage in "judicial legislation" by: dicta, decree, ruling or judgment. He can find no evidence that any
judges': rulings, decrees, orders, or judgments, are binding upon any other party than the litigants in the particular action to
which those are issued. The petitioner cannot find any evidence of legal liability, formal, or informal reprimand for noncompliance with "case law."

O. I IIC5 (JCUIIUIICI uuco

iiiiu

uiai UIC ucicnuaino aiiu uuuu

iuiiwuviianoo iiuu

uic

iiuiruiauicnui

icny uuiy \\j joiy ^Auuoivciy ui I uic

Constitution and laws derived therefrom with regards to the petitioner, his case, and his detention. He also finds that they were
Obligated to adjudicate and decide to detain him only on the basis of the Constitution, laws derived therefrom, jurisdictional
facts, and material facts. He can find no evidence to the contrary.
4. The petitioner finds that the defendants and court functionaries relied upon "case law" as Supreme controlling law to
supersede the unconstitutionally of detaining the petitioner, their lack of jurisdictional authority, and the presumption of his
actual innocence. The petitioner finds that the defendants detain him illegally. He can find no evidence to the contrary.
e) FACTS-PERTAINING to SECTION XVI.
1. The petitioner finds, after due attempt and exhaustion of resources, that he was: investigated, detained, prosecuted,
defended, tried, judged, sentenced, committed, and detain for: the profit and gain of the defendants and all those involved in his
"criminal case," to the petitioner’s exclusion. That included the issuance of a penal-judgment bond, as his sentence exceeded
365 days (one year). The profiteers continue to receive dividends, annuities, and/or residuals as a result of the plaintiffs
ongoing detention. Hecan find no evidence to the contrary.
2. The petitioner finds that all involved parties were subject to immediate mandatory disqualification as per [28 USC section 455
(b)(4)] and [28 USC CANON 3(C)(1 )(c)]. They had absolutely no authority to detain the plaintiff. The petitioner finds that the
respondents are subjecting him to unlawful detention, never overcoming the presumption of his actual innocence or providing
the requisite evidence of jurisdictional authority to detain him. He can find no evidence to the contrary.

FC! ALLENWOOD
INMATE BULLETIN
■a

anTtTrmatsmKveaatatLXM%tmrtt*Tsntmt=iinaiaaitrm)

Education Schedule
The education schedule for the next week is posted below. Education
is available to you on your unit’s scheduled day and time via a one way
move down and a one way move back up. THERE WILL ONLY BE
ONE MOVE. The door will be secured arid you will not be permitted to
leave Education until the move is announced.
Services provided are GED and ESL classes for students currently
enrolled in GED and ESL, leisure library, and law library. Legal copies
may be made during this time utilizing a copy card (purchased at
commissary). First Step Act packets and ACE packets may also be
picked up and dropped off for credit during this time.
Education Schedule:
Monday
Tuesday
Wednesday
Thursday

2A
1A
4A
3A

730am
730am
730am
730am

to
to
to
to

Recall
Recall
F<ecall
Recall

2B
1B
4B
3B

1230pm to
1230pm to
1230pm to
1230pm to

Department Head

■ Appendix M

Date
S'* /•, -\E Wi
C: fcSTA

wi'.i

TV.Sr,?
,i,
i I--..! IS

Recall
Recall
Recall
Recall

DECLARATION OF UNITED STATES CONSTITUTION
AND HUMAN RIGHTS VIOLATIONS

i

•;

I

f

sdo hereby

17

declare and state

as follows:
I am a member of the #. JUSTICE4ALL a non-profit movement of concerned citizens seeking to uncover the true application of Justice.
I

am currently being held in custody unlawfully and unconstitut­

ionally within the federal prisons.
I*i the interest of justice, I am documenting these Human Rights
Violations and fraud against the United States Constitution to
a

c-.

.

•

the President of the JJnited St'ates tyonald J. Trump/v
I wish to expose a major injustice that have been hidden to
the public and perpetrated by the Department of Justice in conjunction with the Legislative and executive branches.
The Preamble of the U.S. Constitution reads: "We the people of
the United States in order to form a more perfect Union,establish
Justice, insure domestic Tranquility, provide for the common
defense, promote the general Welfare, and secure the blessings,
of Liberty to ourselves and our Posterity ...
According, to the investigation conducted by # JUSTICE4ALL,
we discovered that cultural groups in the United States and
Foreign Nationals are being systematically targeted for control
and subjugation.
The findings, 4fter meticulous study of Literally hundreds j?f
cases indicate that duty-bound officers of the federal
government
all whom swore the citizenry of this nation to abide by its f
Constitution-routinely commit acts of paper terrorism and unlawful
waivers of constitutional rights in criminal prosecutions.

C\J
CD

C\J

* li

5°
- Appendix N

**

1

c-

Ttie six most significant continuing human rights and Constitutional Violations we discovered being committed
are:
1• Authorities arrest detainees in absence of
criminal complaint
or warrant of arrest;
2. U.S. Attorney's held detainees in (custody for over 30 days
unlawfully. The prosecution used
under-handed tactics in collusion
with detainees counsel to coerce detainee to waive indictment
in the
prosecution and defeat speedy trial act provisions;
3. Authorities arrested detainees in foreign country without a
warrant of erres;t, complaint or indictment.Detainees
r
wefe extradited to the Doited States in violation of the law^nd O.S.

c:

Constitution Art.l, . sec. 8 Cl 17
(Territory Jurisdiction).
4.
Authorities arrested detainees on a warrant of arrest issued
by a Magistrate Judge based
purportedly on a grand Jury Indictment
that was •never presented to a Grand
jury in open court, and missing
grand jury foreperson signature, that is rubber
stamped.
5.
Detainees were coerced to stand trial
on a indictment that was
dismissed.
6.

Detainees were held in custody for
over ninety days, up
to eight years. The U.S.
Attorneys in collusion
with detainees
counsel failed to
accord detainees a speedy trial
guaranteed
under the sixth amendment and
employed intimidati on tactics
and calculated decepti
■ve manevuers toJ’c
ontinuosly extend
ninety.days speedy trial
restraints.
/.i'
/«•*

. jt

■ -b

i
CM

o

i

i

J

i

CM
C\J .
CZ5

•*

2

i

i

'A

•A

*A

. c/a-iitsil - KbbbKbNCE CASES

a) Julio Cesar Lopez Pena was prosecuted in criminal no. 1:05-CR-00191-DC-1 in the Southern District of New York. Pena
was arrested in Medellin, Colombia in absence of a warrant of arrest, criminal complaint or indictment. He was extradited to tt
United States and sentenced under its penal code without being afforded any of its constitutional rights.
b) Najeem Moore
Eastern District of Wisconsin
2.-13-CR-00084-LA-1
indictment, ^S^’^S^^he'iri^aMn^ctnienfused'toIncarcerate^the^efTndanTwras'knowrrto^tnvalid"
a waiver of
c) Dennis Gpggel
Southern District of New York
1:13-CR-00521-L75

r

c:

r

r;

r-

C-

/>

r/

’

d) Roy Hale
Southern District of New York
1 .'92-CR-00091-RJD

e) Ali Shukri Amin
Eastern District of Virginia
1:15-CR-00164-CMH-1
Arrested without a

f) Munir Abdulkader
Southern District of Ohio
filed ten watels fiSuston

ar[ai9ned °" a criminal complaint. His counsel

enttre penod during which theihajor decisions

iS

S^.“mmUnlCa'lon W**"* ,or "»»«*

g) Daniel Boyd
North Carolina-.-’
, 5:09-CR-00216-FL

/*’>

L...

SaSa=«Ssssss=saa.*BB=!.

a second, superseding
received by the courts,

CM
CD
CM
CM
CD

i

y

*

i

J

3
•A

'A

• A-

■A

jury. tte was denied a fair trial guaranteed”unde7sMhWam^

°n 3 'nc*lctrnent ^at was n^ver presented'to a gn

'•u&rzsiu

U.S. v. Kifano Jordan
U.S. v. Michael A. Orji

Crim No. 1:18-CR-00068

U.S. v Talmadge Barnes

•

Eastern District of Maryland

Crim No. 2:13-CR-00084

U.S. v. Jovan Cunningham
U-Sf.v. Ronald W. Evans

U.S. v. Peggy Hill*'-'

Eastern District of Wisconsin

Crim No. 15-CR-83-JPS-4
r;

U.S. v. Jason Pedersen

Eastern District of New~York~

Crim No. 3:12-CR-30042-SEM
_______
Crim No. 09-00128-01-CR-W-NKL
Crim No. 4106-CR-00281

Crim No. 15-CR-83-JPS-6
S

Crim No. 15-CR-83kJPS-5

U.S. v. Volican Mergen

— /•

S.D/IN

E.D.WH-/.

r

r

S/D.N/Y

Crim No. S1 04-CR-1162-SAS
Crim No. 10-CR-392-CS

S.O.N/Y
S.D.NY

Crim No. 06-CR-288-S

U.S. v. Daniel Corbin

r

E.D.WI

Crim No. 08-CR-777-NRB

U.S. v. Felix Pineda

r

E.D.MI
E.D.AR

_Crim No. 1:08-CR-132-WTL "

U.S. v. CierraMcarthur

U.S. v. Damon Sinclair

Eastern District of Illinois
r

■-------------------------------------

U.S. v. Richard Schwigh

U.S. v. Carlos Echeverry

Eastern District of Michigan -

Crim No. 8:09-CR-00085

U.S. v. Najeem Moore

U.S, v. Elvis Marie

District of Columbia

Crim No. 1:16-CR-20387

U.S. v. James 0. Johnson

U.S. v. Dionte Bernard

.. .....
Southern District of New York

Crim No. 1:18-CR-00834

W.D.NY

Crim No. 06-CR-352-NGG

S.D.NY

Crim No 06-CR-352-NGG

E.D.NY

jf
. j>

. jf

• j!

/> •

t

a

C\J

o

/

ii

U

CM
CM
CD

4
•A

•A

ii

.
I fi

•A

a
'A

w.o. v. iDramm Kurti
,

Crim No. 02-CR-1014

U.S. v. Jason Williams

Grim No. 10-CR-431-08-CM

U.S. v. Frank Burnett
U.S. v. Jason Matera
U.S. v. Daniel Diaz

U.S. v. Mark Pjerti
U.S. v. Victor Barcelo
U.S. v. Alphonso Golden
U.S. v. Kevin Jerome

S.D.NY
S.D.NY

Grim No. 11-CR-244-2-RJs"

S.D.NY

Crim No. -2-CR-743-RCC

S.D.NY

Crim No. 1:U1-06-CR-0129
1:06-CR-00023
^rim No. 08-Cr-65-02

S.D.NY
'
S.D.NY

Crim No. 13-CR-38-RJS-------Crim No. 3:06-CR-319

S.D.NY

_------

D.SC

Crim No. 2.-01-CR-0261

S.D.WV

U.S. v. csnaron R. Wolford
Crim No. 1:06-CRjjj13
------ -------- r______ __________f__________ 7
U.S. v. Ashley Simpson
^rim no. 4:16-CR-213
U.S7v~zerricK E. Vl^lker
Crim No 1:l5teR-ng
U.S. v. Frank Orlowski
U.S. v. Baldomero Vega
U.S. v. Maurice Gorle
U.S. v. Ashley Simpson
U.S. v. i-rank Orlowski
U.S. V. Baldomero Vega
U.S. v. Maurice Gorle

r

r

r

r

N.D.T

r;

ri

N'D.T

Grim No. 4:14-CR-244 ~

£-•

N.D.T

Crim No. 7:11-CR-1667
"Crim No 4:09-CR-554

aovT

S.D.T
‘
W.D.EL

Crim No. 4:16-CR-213-A

S.D.TX
0

Crim No 4:14-CR-244-A

N.D.TX"

Gum No. /: 11 -CR-1667-15~

S.D.TX

"crim No. 4:09-CR-554-Cl£T
W.D.EL

U.S. v. John Flynn

Crim No. 83-00028-01 -SC—

U.S. v. Norman D’souza “
U.S v. Ralph Gezelman

D.NH

Crim No. 16-CR-253-RA------

D.NY

Crim No. Oo-uk-30022-MAP

d.mas

U.S. v. James Machado
Crim No 04-10232-RWZ------. J*

D.MAS

nga

i
cm

j

CD
CM
CM

i

1

j

• it

J

'*■
>*■

es

J

i

5
>*

■ li­

US' vTAironTTDiHiite

D.Minn

3~us: v- Oytum A. Mihalik

S.D.Ohio

^™N^2?lT^oo833

Us-v^idrisiAbdi/^h

aman
^^JaiminkiR^

^^0^09^^244—"

c.d.ca

^^4?15^oo049~

aoNTy-

revaio
Luz M^Gutierrez V"
ergara

D.D.C

U’®^ArrtoS1=i^:
U-S-

e.d.mi

^00248~

rown

U.S. v. 0

Crim f^O?16^oo037
^N°To?i4^oo36r

D.Minn

CrimKbTi4moo5r—

D.Minn
E.D.N.C

U.S.
.

U.S. v. Die

Rui/Z&

CrirT1^°^io^Rtoo240~~

r

S.D.FL

r

r

N-D.JJl.

^^^ffl^CR00714------^

/'

/'

a57fix
M-s- v. Armeka Aki

~^^^°^^0^CR^0025l------~~

HorAkl

w.d.tex
n^ohio'

U.S. v. Victor D.

Salamanca
^^^uradirTMl
Abdi
u-^Tjoshua^TH
aften

U-s-^~Hairis------ ;
U^-^3AiFYusuf

Cr^°^06^R5oooT
S.D.FL

~^n^3?T5^oo03r

"s^OHio

"^TNo77H6^CR^0227~

~~w.d!w/s~

^TNo^?io^r^45^~-

"eKva

::

i *

■

SiaCAL

:.

• j

* .»•»

• j* Vf

/.,•»

/ .r»

• .»»

/ .r*

;

;

;

CM
CD
C\J
CM
O

'A

;

;

/

;

* 6
•A

•A

;

• ;
•A

iwiwiiq

Ur,m No. 15-CR-00098~

U.S. v. Zacharia Y. Abdurahman

Us: V’ Jor9e A. loarguen-Palacio

D.Minn
Grim NoT 1:09-CR-00498~
S.D.N.Y

U.^v. Nancy Conde
------------Aquilar Ramirez
^S- v- Wohamud Abdi Yusuf

N.D.Miss

~~Crim No. 0M5-CR-00049

<^nm No. 1.-07-CR-00248 '

D.D.C

'
Grim No. 4.-10-CR-00547

^ v- ^'cnoias Teausant------------

e.d.miss

^rim No. 2:14-CR-00087~
U.avTD3KiE"Ray Morgan

E.D.CAL
Grim No. 1:14-CR-00414------M.D.N.C

U.S. v. Leo N. Davis
Grim No. l:l5-CR-00059--------U-s. v. Alaa Saadeh

S.D.GA

:•

"Grim No72:15-CR-00558~------D.N.J

G-S. v. Adam Dandach

^rim No. 8:14-CR-00109
C.D.CAL
r
S.D.N.Y

CrintNo. i:O8-CR-01290—<T

--------£.______ r-

U,s- Mauricio Santoyo Vela

----------/ '

"^rim No. 1J69-CR-00830

r

V

T

r~,

n.d.iij

SCO;

urirn No. 1.-12-GR-00217

u-s- v-^^seMohamme?------ T
Gufran Ahmed
:

i

~~

E.D.VA

U-im No. 1.-13-GR-202364----- ~

S.D.FL

U.S. v. Patrick Nayyar
U^S. v. Ali Asad Chandia

•

Grim No. 1:09-CR-01037

:

S.D.N.Y
Ur|m No. 1.-U5-CR-00401--------~

y'S‘ v' Bafaa,y Saeed Moalin ~
U.S. v. Adam Dandach

E.D;VA

wim No. 3.-10-QR-04246----- ~7

:------ :

unm No. 8:14-CR-00109

U.S. v. Nicholas Young

'

S.D.GAL-...... ..

~

S.D.N.Y-......~

:---- :

U.S. v. Hafiz Muhammad ■
Sher Ali Khan

OYim No. 1:1b-CR-00265 ------ T

T

••

E.D.VA ......

^nm No. 1:11-CRr20331---------~
S.D.FL •

U.S. v. Mufid Elfgeeh
Crim No. 6ri4^CR'-06147
W.D.N.Y

U-S. v. Amina Farrah Ali
Hawo Hassan

^rim No. 0:10-CR-00187
D.MINN

• j*

il.

. • J*
. j>

• J-

• j:
•

• j*

j’

« J*
•

*

CM

J

C3
CM

CM

/.f'

/ n'*

i

i
■

> li

i
i

7

i

Mi
■*

C5

j'

/,h

:i !■'

■ It-

SUllty °‘ tot«Hy circumventi
lnS the fifth amendmerits of the Constitutio,
ion which states that " No
Person shall
be held to answer for
a capital,
or .infamous crime, unless ‘on
a Presentment or indictment of
Grand Jury, except in
cases
arising in the land
h
of naval forces,
or in the Militia,” nor
be deprived of Life, liberty,
or Property, without
due process
of law.
We the People

appeal to the United

States President to inter-i.
current injustice and
corruption carried
out ,with impunity. ^ the
People Eray to the President
to de^.erf9
the Constitution "that
WaS °rdained
established" by the
'■
c:
: people
°f United Stages to
promote ^fundamental freedom,
'Cto establish a
more perfect union and
promote accountability for
violations of
the Constituti
on and Human Rights.
The Justice 4 All finds
Substantial evidence that
the U.S.
Department of Justice
as a whole is committing
genocide against
the Americans
and foreign Nationals.
According to the
United States
18
United States Code 1091 (b) (c) Congressional enactment
and (d) it
states that whoever
whether in time of
peace or in time
of war and with specific
intent to destroy, in whole
or in Substantial
Part, a national,
ethinic, racial
or religious group and
causes the permanent
impairment of the mental faculti
es through drugs, torture or.
similar techniques and
.
subjects J’the
group
to
condition
that intended to
s of life
cause the* physica! dest&cti
/
on Of the group
shall be punished.
vene and investigate the

j

• J>

• j»

• j-

.

j»

•

. ibe founders of the United
States recognized that
ment is charged with
the governensuring
that
the
not wrongfully interfere
government itSP1f
with
a
Pe°/les
riSbts
and fundamental5
ffe^doms.
1 I t

C\J
CD
C\J
CNJ

o

.(■

;

j

i

8
‘A-

>A

>A

•A

•■A

/if

I am respectfully requesting the President of the United States
Donald J. Trump., to Exercise Power vested by the Constitution for
the U.S.A. in the office of the President, as implemented by the
Acts of Congress evidenced in the U.S. Code as ,• Chief Prosecuting
Authority of the U.S. Federal Court and either directly or by and
through the President's Adutant Deputy; Attorney General based on
a Presidential Delegation Order and order respondents in Civil
Action No.

filed in the

Middle District of Pennsylvania to respond to petitioner Habeas
Corpus.
Pursuant to congressional enactment evidenced at [28 USCS section
r;

f'

c:
2241]. Power to Grant Writ:• J .the respondants
must conform to the
f'

r

r

mandate and direct the presiding judge to issue an order for me
to be released from custody. Because i am being .held in custody
in violation of the Constitution or laws or treaties of the
United States.
I am pleased to submit this declaration of United States Constit*-°n and Human Rights Violations with the hope and aim to raise
public awareness and stir forthwith action by the U.S. President
and Attorney'General Office to restore faith and integrity in our
American justice system and to make America great again.

Date:

•

j*

CC: Attorney General
CM
CD
CM
CM

'V
CD

i

i

J

9

i

i

